A-l
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
(Filed Jun. 17, 2019)
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A SUM­
MARY ORDER FILED ON OR AFTER JANUARY 1,
2007, IS PERMITTED AND IS GOVERNED BY FED­
ERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN ELEC­
TRONIC DATABASE (WITH THE NOTATION “SUM­
MARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shal United States Courthouse, 40 Foley Square, in the
City of New York, on the 17th day of June, two thou­
sand nineteen.
PRESENT:
DEBRA ANN LIVINGSTON,
GERARD E. LYNCH
RICHARD J. SULLIVAN,
Circuit Judges.

A-2
Elaine Ward,
Plaintiff-Appellant,
v.

17-2973

City of New York, Scott Stringer, New York City Comp­
troller, Bill de Blasio, New York City Mayor, Aisha Norflett, The NYC DOB, Director of Licensing Unit, Rick
Chandler, The NYC Department of Buildings Commis­
sioner, Michael Cardozo, Former Corporation Counsel,
Robert Limandri, Former NYC DOB Commissioner,
Drake Colley, NYC Law Department Sr. Appeals Attor­
ney, Louise Moed, NYC Law Department of Counsel,
Richard Paul Dearing, NYC Law Department Attor­
ney, Luiggy Gomez, NYC Law Department Messenger,
Moses Williams, NYC Law Department Notary, Debra
Herlica, NYC Building Special Investigations Director,
Patricia Pena, NYC BSIU Attorney, Zachary W. Carter,
Plumbing Foundation City of New York, Inc., Lawrence
Levine, Chairman of the board of Directors, Licensed
Master Plumber of the City of New York, Stewart
O’Brien, Executive Director of the Plumbing Founda­
tion, The Law Offices of Stuart A. Klein, Peter E. Sayer,
Esq., Stuart A. Klein, Esq., Par Plumbing, AKA The
PAR Group, LT. Terrance O’Brien, Assistant Deputy
Director of the Plumbing Foundation,
Defendants-Appellees.
FOR PLAINTIFFAPPELLANT
FOR DEFENDANTSAPPELLEES
City of New York, Scott
Stringer, New York City

Elaine Ward, pro se,
Flushing, NY.

A-3
Comptroller, Bill de Blasio,
New York City Mayor,
Aisha Norflett, The NYC
DOB, Director of Licensing
Unit, Rick Chandler, The
NYC Department of
Buildings Commissioner,
Michael Cardozo, Former
Corporation Counsel,
Robert LiMandri, Former
NYC DOB Commissioner,
Drake Colley, NYC Law
Department Sr. Appeals
Attorney, Louise Moed,
NYC Law Department of
Counsel, Richard Paul
Dearing, NYC Law
Department Attorney,
Luiggy Gomez, NYC Law
Department Messenger,
Moses Williams, NYC Law
Department Notary, Debra
Herlica, NYC Building
Special Investigations
Director, Patricia Pena,
NYC BSIU Attorney,
and Zachary W. Carter:

Jane L. Gordon, Diana
Lawless, of Counsel, for
Zachary W. Carter,
Corporation Counsel of
the City of New York,
New York, NY.

FOR DEFENDANTSAPPELLEES
The Law Offices of Stuart Christopher M. Slowik,
A Klein, Peter E. Sayer, Esq., Klein Slowik PLLC,
and Stuart A. Klein, Esq.: New York, NY.

A-4
FOR DEFENDANTAPPELLEE
Par Plumbing Co., Inc.:

Don R. Sampen, Hillary
A. Fraenkel, Clausen Mil­
ler, PC., Florham Park, NJ.

FOR DEFENDANTSAPPELLEES
Plumbing Foundation City
of New York, Inc., Lawrence
Levine, Chairman of the
Board of Directors, Licensed
Master Plumber of the
City of New York, Stewart
O’Brien, Executive Director
of the Plumbing Foundation,
and Terrance O’Brien,
Aislinn S. McGuire, Kauff
Assistant Deputy Director McGuire & Margolis, LLP,
of the Plumbing Foundation New York, NY.
Appeal from a judgment of the United States Dis­
trict Court for the Southern District of New York (Castel, J).
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
judgment of the district court is AFFIRMED.
Plaintiff-Appellant Elaine Ward (“Ward”), proceed­
ing pro se, appeals the district court’s judgment sua
sponte dismissing her amended complaint, in which she
asserted claims under 42 U.S.C. §§ 1983 and 1985, as
well as under state law, arising out of the revocation of
her master plumber’s license and subsequent state court
litigation. We assume the parties’ familiarity with the
underlying facts, the procedural history of the case,
and the issues on appeal.

A-5
In reviewing a district court’s dismissal of a com­
plaint for lack of subject matter jurisdiction, we review
factual findings for clear error and legal conclusions de
novo, see Maloney v. Soc. Sec. Admin., 517 F.3d 70, 74
(2d Cir. 2008), and can consider documents attached to
the complaint and matters subject to judicial notice,
see Kramer v. Time Warner Inc., 937 F.2d 767, 773 (2d
Cir. 1991). Although this Court has not yet determined
whether a district court’s sua sponte dismissal of a
complaint as frivolous is reviewed de novo or for abuse
of discretion, we need not make such a determination
where the district court’s decision “easily passes mus­
ter under the more rigorous de novo review.” Fitzgerald
v. First E. Seventh St. Tenants Corp., 221 F.3d 362, 364
n.2 (2d Cir. 2000). This Court affords pro se litigants
“special solicitude” by interpreting pro se complaints
“to raise the strongest claims that [they] suggest[].”
Hill v. Curcione, 657 F.3d 116,122 (2d Cir. 2011) (inter­
nal alterations and quotation marks omitted).
Here, the district court properly dismissed most of
Ward’s federal claims as untimely. When filed in New
York, section 1983 and 1985 claims are subject to a
three-year statute of limitations, accruing “when the
plaintiff knows or has reason to know of the injury
which is the basis of [his or her] action.” Pearl v. City of
Long Beach, 296 F.3d 76, 79-80 (2d Cir. 2002) (internal
quotation marks omitted) (Section 1983); Cornwell v.
Robinson, 23 F.3d 694, 703 (2d Cir. 1994) (Section 1985).
Although untimeliness is an affirmative defense, a
complaint may be dismissed on this basis if the defense

A-6
is plain from the face of the complaint. See Pino v.
Ryan, 49 F.3d 51, 53-54 (2d Cir. 1995).
With the exception of some of Ward’s allegations
concerning state court proceedings, all of the events re­
counted in her complaint occurred and were known to
her prior to May 17,2014, which was three years before
she initiated this action. Thus, most of her claims are
untimely in the absence of equitable tolling. These un­
timely claims include all her allegations concerning:
discrimination and retaliation in the 1980s and 1990s;
the 2011 revocation of Ward’s master plumber’s license;
the alleged misconduct leading to the state court’s
April 2014 grant of leave to appeal; and her former at­
torney’s April 2014 initiation of a lawsuit against her.
Ward’s theory of equitable tolling is that DefendantsAppellees allegedly concealed their actions from her
and colluded with her former attorney to do so. How­
ever, Ward alleged that she knew about the conceal­
ment and her attorney’s improper relationship with
the other Defendants-Appellees by April 2014, which
was still more than three years before she filed the
original complaint in this case on May 17, 2017. Thus,
even if Ward were entitled to tolling on her claims until
April 2014, most of her claims would still be untimely.
See Pearl, 296 F.3d at 79-80; Cornwell, 23 F.3d at 703.
Those of Ward’s claims that are not time-barred
are barred by the Rooker-Feldman doctrine. Under
that doctrine, federal courts lack subject matter juris­
diction over claims that, in effect, challenge state
court judgments. See District of Columbia Court ofAp­
peals v. Feldman, 460 U.S. 462, 486-87 (1983); Rooker

A-7
v. Fidelity Trust Co., 263 U.S. 413, 415-16 (1923). A
claim brought in federal court is barred under RookerFeldman when (1) the plaintiff lost in state court;
(2) the plaintiff complains of injuries caused by a state
court judgment; (3) the plaintiff invites the federal
court to review and reject that state court judgment;
and (4) the state court judgment was rendered prior to
the commencement of proceedings in federal court.
Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 284 (2005).
The thrust of Ward’s complaint regarding the
events of May 2014 and thereafter is that DefendantsAppellees, together with state court judges, thwarted
her efforts to challenge New York City’s appeal and to
obtain a traverse hearing, which she contends that she
was entitled to based on Defendants-Appellees’ earlier
wrongdoing. But each element of Rooker-Feldman is
satisfied here. Ward lost in state court prior to initiat­
ing this action. See Ward v. City of New York, 23 N.Y.3d
1046 (2014); Ward v. City of New York, 138 A.D.3d 629
(1st Dep’t 2016). Ward’s alleged injuries, relating to the
loss of her professional license and denial of requested
hearings, are injuries resulting from the state court
judgments. And she now seeks reversal of those judg­
ments, including an order reversing the state court de­
cision not to hold a traverse hearing. Although Ward
contends that she is alleging injuries flowing from
Defendants-Appellees’ misconduct before the state court,
rather than from the state court judgments them­
selves, her fraud claims allege actions predating the
state court’s April 2014 grant of leave to appeal. Her

A-8
allegations concerning events thereafter are that state
court judges (who are not parties to this action) issued
or refused to issue orders knowing that the City was
not entitled to appeal. Such claims “require the federal
court to review the state proceedings and determine
that the . . . [orders were] issued in error” and are thus
barred by Rooker-Feldman. Vossbrinck v. Accredited
Home Lenders, Inc., 773 F.3d 423, 427 (2d Cir. 2014).
Accordingly, the district court properly dismissed Ward’s
amended complaint.1
The district court also did not err in declining
to grant Ward leave to file a second amended com­
plaint. Denials of leave to amend based on futility
are reviewed de novo. Hutchison v. Deutsche Bank Sec.
Inc., 647 F.3d 479, 490 (2d Cir. 2011). A pro se plaintiff
should be “grant [ed] leave to amend at least once when
a liberal reading of the complaint gives any indication
that a valid claim might be stated.” Cuoco v. Moritsugu,
222 F.3d 99, 112 (2d Cir. 2000) (internal quotation
marks omitted). But the district court was not obli­
gated to grant leave to amend a second time after
Ward’s first amended complaint failed to cure the de­
fects that the court identified in its order to amend. See
Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir. 1988).

1 To the extent that Ward’s amended complaint may be con­
strued to also assert state law claims, Ward abandoned these
claims by failing to address in her appellate brief the district
court’s decision not to exercise jurisdiction over them. See LoSacco v. City of Middletown, 71 F.3d 88, 92-93 (2d Cir. 1995) (is­
sues not addressed in pro se appellate brief are abandoned).

A-9
Finally, Ward’s claim that the district court was
improperly influenced by Defendants-Appellees and
was biased against her is meritless and based entirely
on her dissatisfaction at the court’s adverse rulings.
See Chen u. Chen Qualified Settlement Fund, 552 F.3d
218, 227 (2d Cir. 2009).2
We have considered all of Ward’s remaining argu­
ments and find them to be without merit. Accordingly,
we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk of Court
[SEAL]
/s/ Catherine O’Hagan Wolfe

2 Ward moves to strike the appellees’ briefs, oral argument
statements, and various certificates of service, to disqualify and
sanction counsel, and to amend this Court’s docket. These mo­
tions are denied as moot.

A-10
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
ELAINE WARD,
Plaintiff,
-againstTHE CITY OF NEW YORK;
SCOTT STRINGER, NEW YORK
CITY COMPTROLLER; BILL
DE BLASIO, NEW YORK CITY
MAYOR; AISHA NORFLETT,
NYC DOB DIRECTOR OF
LICENSING UNIT; RICK
CHANDLER, NYC DEPARTMENT
OF BUILDINGS COMMIS­
SIONER; ROBERT LIMANDRI,
17-CV-3710 (PKC)
FORMER NYC DOB COMMIS­
ORDER OF
SIONER; ZACHARY CARTER,
DISMISSAL
CORPORATION COUNSEL;
MICHAEL CARDOZO, FORMER (Filed Sep. 18,2017)
CORPORATION COUNSEL;
DRAKE COLLEY, NYC LAW
DEPARTMENT SR. APPEALS
ATTORNEY; LOUISE MOED,
NYC LAW DEPARTMENT OF
COUNSEL; RICHARD DEARING,
NYC LAW DEPARTMENT
ATTORNEY; LUIGGY GOMEZ,
NYC LAW DEPARTMENT
MESSENGER; MOSES WILLIAMS,
NYC LAW DEPARTMENT
NOTARY; DEBRA HERLICA,
NYC BUILDING SPECIAL
INVESTIGATIONS DIRECTOR;

A-ll
PATRICIA PENA, NYC BSIU
ATTORNEY; THE PLUMBING
FOUNDATION OF THE CITY OF
NEW YORK, INC.; LAWRENCE
LEVINE, CHAIRMAN OF THE
BOARD OF DIRECTORS AND
LICENSED MASTER PLUMBER
OF THE CITY OF NEW YORK;
STEWART O’BRIEN, EXECUTIVE
DIRECTOR OF THE PLUMBING
FOUNDATION; LT. TERRENCE
O’BRIEN, ASSISTANT DEPUTY
DIRECTOR OF THE PLUMBING
FOUNDATION; LAWRENCE
LEVINE; PAR PLUMBING, INC.
ALSO KNOWN AS THE PAR
GROUP; STUART A. KLEIN
ESQ.; PETER E. SAYER ESQ.,
AND THE LAW OFFICES OF
STUART A. KLEIN, ESQ.,
Defendants.
CASTEL, United States District Judge:
Plaintiff Elaine Ward brings this pro se action, for
which the filing fee has been paid, alleging violations
of her constitutional rights in connection with the 2012
revocation of her master plumbers license. By order
dated June 13, 2017, the Court detailed Plaintiff’s al­
legations against more than twenty defendants, which
included New York City, city agencies, present and for­
mer city employees and officials, and private individu­
als, and directed Plaintiff to file an amended complaint

A-12
to address deficiencies in her original pleading.1 Plain­
tiff filed an amended complaint on August 11, 2017,
and the Court his reviewed it. The amended complaint
is dismissed for the reasons set forth below.
STANDARD OF REVIEW
The Court has the authority to dismiss a com­
plaint, even when the plaintiff has paid the filing fee,
if it determines that the action is frivolous, Fitzgerald
v. First E. Seventh Tenants. Corp., 221 F.3d 362, 363-64
(2d Cir. 2000) {per curiam) (citing Pillay v. INS, 45
F.3d 14,16-17 (2d Cir. 1995) {per curiam) (holding that
Court of Appeals has inherent authority to dismiss
frivolous appeal)), or that the Court lacks subject mat­
ter jurisdiction, Ruhrgas AG v. Marathon Oil Co., 526
U.S. 574, 583 (1999). The Court is obliged, however, to
construe pro se pleadings liberally, Harris v. Mills, 572
F.3d 66, 72 (2d Cir. 2009), and interpret them to raise
the “strongest [claims] that they suggest,” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 474-75 (2d Cir.

1 When Plaintiff filed this action, there was no indication
that the Clerk of Court had issued summonses to Plaintiff. In the
June 13, 2017 order, the Court directed that no summons should
issue. Docket entries dated August 22, 2017, however, show that
summonses were in fact issued to Plaintiff when she filed the
case. On August 23, 2017, Plaintiff submitted twenty-three affir­
mations of service. The Court extended Defendants’ time to an­
swer until October 20, 2017. (ECF Nos. 12, 38.) In light of this
order dismissing the amended complaint, any orders directing
Defendants to answer the amended complaint are vacated as
moot.

A-13
2006) (internal quotation marks and citations omitted)
(emphasis in original).
BACKGROUND
A. The Original Complaint
In her 47-page complaint, filed on May 17, 2017,
Plaintiff alleged that Defendants conspired to violate
her due process rights in connection with the loss of
her master plumbers license, discriminated against
her on the basis of her gender, and retaliated against
her for complaining about that discrimination.
Plaintiff became an apprentice plumber in 1986,
and was promoted to journeyman plumber in 1990. De­
fendant Larry Levine fired Plaintiff from her job at Par
Plumbing in retaliation for testifying before the New
York City Division of Human Rights about gender dis­
crimination in the plumbing trade. Because Plaintiff
continued speaking out about gender bias, she was un­
able to find work, and she left New York in 1991. Plain­
tiff returned to New York in 1997, and she became a
master plumber in 2001. Plaintiff alleges, and the
Court does not doubt, that very few women achieve
this goal.
Plaintiff successfully ran her own business until
2010, when the Plumbing Foundation of the City of
New York (“Plumbing Foundation”), a non-profit or­
ganization involved in setting plumbing industry
standards, asked the New York City Department of
Buildings (“DOB”) to revoke her license. According to

A-14 .
Plaintiff, the Plumbing Foundation sought to elimi­
nate Plaintiff as a competitor for contracts set aside
for women-run businesses. In February 2011, the DOB
served Plaintiff with a petition containing three charges.
One of those charges, lodged at the instigation of the
Plumbing Foundation, was that Plaintiff had applied
for a plumbing permit for work at a property, knowing
that the owner had hired her to supervise his own
worker, rather than one under her direct supervision.
The DOB offered to settle the matter without revoking
Plaintiff’s license on the following conditions: that
Plaintiff plead guilty, waive her right to future litiga­
tion, pay a fine, and submit to a one-year suspension.
Plaintiff declined to settle, and she hired an attorney,
Stuart Klein, to represent her before the Office of Ad­
ministrative Trials and Hearings (OATH). At a hear­
ing in July 2011, the OATH administrative law judge
determined that Plaintiff’s license should be revoked
because of the charge lodged by the Plumbing Founda­
tion, and DOB Commissioner LiMandri upheld that
decision on September 13, 2011.
In November 2011, Klein filed on Plaintiff’s behalf
an Article 78 petition in New York County Supreme
Court. The matter was transferred to the New York Su­
preme Court, Appellate Division, First Department,
which held that while there was “substantial evidence”
that Plaintiff had committed the violation, the revoca­
tion of her license for that one infraction was an “ex­
cessive penalty.” Ward v. City of New York, 111 A.D.3d
498 (1st Dep’t Nov. 14, 2013). The New York Court of
Appeals granted leave to appeal to the City, however,

A-15
and then reversed the Appellate Division’s order. 23
N.Y.3d 1046 (Aug. 28, 2014). (“We cannot say that “the
penalty of [revoking petitioner’s master plumbers li­
cense] . . . shocks the judicial conscience”).
Plaintiff has unsuccessfully challenged the Court
of Appeals decision reinstating the revocation of her
license. See Ward u. City of New York, 138 A.D.3d 629
(1st Dep’t Apr. 28,2016) (the “Supreme Court correctly
found that it lacked authority to overturn the order of
the Court ofAppeals,” and “Petitioner’s appeal from the
order denying her attempt to enforce an order of this
Court was rendered moot by the Court of Appeals’ re­
versal of this Court’s order”), lu. denied, 28 N.Y.3d 1070
(Nov. 22, 2016), reargument denied, 28 N.Y.3d 1135
(Jan. 12, 2017). In addition, in 2012, Plaintiff applied
for a DOB “filing representative ID,” which apparently
would have allowed Plaintiff to work in the plumbing
industry in some capacity. The DOB denied Plaintiff’s
application due to “bad moral character.” Plaintiff also
filed a notice of claim against the City on August 16,
2016, and a “50-H hearing” took place on November 18,
2016. The outcome of that hearing is not clear.
The gist of Plaintiff’s original complaint was that
Defendants conspired to violate her due process rights
because she refused to settle with the DOB, and that
she was and continues to be the victim of gender bias.
Plaintiff accuses city attorneys of committing fraud
and misconduct during the administrative hearings
and state court litigation. According to Plaintiff, those
attorneys withheld documents and information from
her attorney, and failed to inform her attorney that

A-16
they were seeking leave from the Court of Appeals. For
these reasons, Plaintiff does not accept the validity of
the Court of Appeals decision reinstating the revoca­
tion of her license. Plaintiff asked for $18 million in
damages.
B. The June 17 Order to Amend
In its 11-page order granting Plaintiff leave to
amend her complaint, the Court explained why Plain­
tiff’s complaint did not comply with Federal Rule of
Civil Procedure 8. The Court assumes familiarity with
that order, but in short summary, the Court explained
that even accepting Plaintiff’s factual allegations as
true and drawing all reasonable inferences in her fa­
vor, the alleged facts did not make it plausible that
Plaintiff was entitled to the relief sought from the
named defendants. Specifically, the Court held that:
(1) Plaintiff’s claims arising directly out of the state
court proceedings, and seeking judicial review of state
court orders, were precluded by the Rooker-Feldman
doctrine; (2) many of Plaintiff’s constitutional claims
were untimely; (3) there were no facts in the complaint
supporting Plaintiff’s conspiracy claims; (4) Plaintiff
failed to assert facts suggesting that the private de­
fendants had acted under color of state law for the pur­
poses of finding liability under 42 U.S.C. § 1983; and
(5) Plaintiff had failed to state a municipal liability
claim against New York City. In deference to Plaintiff’s
pro se status, the Court granted Plaintiff leave to
amend her complaint.

A-17
C. The Amended Complaint
In the amended pleading, filed on August 11,2017,
Plaintiff details her allegations and provides addi­
tional supporting documentation. Plaintiff alleges that
the DOB has a “custom and practice” of discriminatory
practices with respect to issuing master plumbers li­
censes, that she was the first and only female master
plumber certified, and that the city does not want to
certify women because of the DOB “agenda” (ECF No.
10-1, ^2-5.) Plaintiff further asserts that the Law De­
partment committed fraud to conceal in deference to
the DOB agenda of keeping women out of the plumbing
trade. Attached to the amended complaint is a 1993 re­
port outlining discrimination against women and mi­
norities in the building trades, Plaintiff’s notice of
claim, and email exchanges that she claims show that
due to the misconduct of Law Department attorneys,
the New York Court of Appeals lacked jurisdiction over
her case. (ECF 10-2,26-29.) Plaintiff asserts that a sixyear statute of limitations applies to her fraud claims,
and that her challenge to the denial of her requests for
a traverse hearing are not time-barred.
DISCUSSION
In deference to Plaintiff’s pro se status, the Court
liberally construes her amended complaint to assert
the strongest claims it suggests, and assumes the truth
of her assertions. Even through that lens, however,
the amended complaint does not remedy the problems
plaguing Plaintiff’s original pleading.

A-18
After the DOB administratively revoked Plain­
tiff’s master plumbers license in 2011, Plaintiff filed an
Article 78 proceeding in state court. The Appellate Di­
vision determined that revocation was an excessive
penalty, Ward v. City of New York, 111 A.D.3d 498 (1st
Dep’t Nov. 14, 2013), but the New York Court of Ap­
peals determined that it was not. 23 N.Y.3d 1046 (Aug.
28, 2014). As explained in its prior order, the RookerFeldman doctrine precludes this Court from reviewing
the state court judgments under just these circum­
stances. See Exxon Mobil Corp. v. Saudi Basic Indus.
Corp., 544 U.S. 280, 284 (2005) (holding that federal
district courts are barred from deciding cases “brought
by state-court losers complaining of injuries caused
by state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.”). Plain­
tiff’s argument that she is challenging the fraud and
misconduct of city attorneys, and not the state court
judgments, is unavailing.2 Moreover, for the same rea­
sons set forth in the prior order, the amended com­
plaint does not show that Defendants conspired against
Plaintiff, or that the private defendants acted under
color of state law.
If and to the extent that any of her federal claims
challenge the circumstances underlying the revocation
2 Plaintiff has raised the issue of attorney misconduct in the
state courts, Ward v. City of New York, 138 A.D.3d 629 (1st Dep’t
Apr. 28, 2016), Iv. denied, 28 N.Y.3d 1070 (Nov. 22, 2016), reargu­
ment denied, 28 N.Y.3d 1135 (Jan. 12, 2017), and in a notice of
claim filed with the city.

A-19
of her master plumbers license by the DOB in 2011,
they are time-barred. The statute of limitations for
claims under 42 U.S.C. §§ 1983 and 1985 is found in
the “general or residual [state] statute [of limitations]
for personal injury actions.” Pearl v. City ofLong Beach,
296 F.3d 76, 79 (2d Cir. 2002) (quoting Owens v. Okure,
488 U.S. 235, 249-50 (1989)). In New York, that period
is three years. See N.Y. C.P.L.R. § 214(5). Plaintiff filed
this complaint on May 17,2017. Any § 1983 and § 1985
claims arising before May 18, 2014, are thus timebarred. Although given an opportunity to do so, Plain­
tiff did not provide any basis for tolling the limitations
period. While plaintiff’s litigation battle continues in
state court with applications made as recently as Feb­
ruary 2017, federal claims that challenge the actions
of the DOB in revoking her master plumbers license or
actions of any public official prior to May 18, 2014, are
time-barred. The Court declines to exercise supple­
mental jurisdiction over any state law claims.3
3 To the extent Plaintiff is asserting state-law claims with
longer limitations periods, a district court may decline to exercise
supplemental jurisdiction over such claims when it “has dismissed
all claims over which it has original jurisdiction.” 28 U.S.C.
§ 1367(c)(3). Generally, “when the federal-law claims have dropped
out of the lawsuit in its early stages and only state-law claims
remain, the federal court should decline the exercise of jurisdic­
tion.” Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 350 n.7
(1988)). Having dismissed the federal claims over which the Court
has original jurisdiction, the Court declines to exercise its supple­
mental jurisdiction over any state-law claims Plaintiff may be
asserting. See Kolari v. New York Presbyterian Hosp., 455 F.3d
118, 122 (2d Cir. 2006) (“Subsection (c) of § 1367 ‘confirms the
discretionary nature of supplemental jurisdiction by enumer­
ating the circumstances in which district courts can refuse its

A-20
District courts generally grant a pro se plaintiff
leave to amend a complaint to cure its defects, but
leave to amend may be denied if the plaintiff has al­
ready been given an opportunity to amend but has
failed to cure the complaint’s deficiencies. See Ruotolo
v. City of New York, 514 F.3d 184, 191 (2d Cir. 2008);
Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir. 1988).
For the reasons discussed in this order, it does not ap­
pear that the defects in Plaintiff’s complaint can be
cured with an amendment. Accordingly, the Court de­
clines to grant Plaintiff leave to file a second amended
complaint.
CONCLUSION
For the reasons set forth here and in the June 13,
2017 order, the complaint in its entirety is dismissed
as to all defendants for failure to state a claim on which
relief may be granted. 28 U.S.C. § 1915(c)(2)(B)(ii). The
Court denies as moot any pending requests for assis­
tance with subpoenas or with obtaining other discov­
ery. The Clerk of Court is directed to mail a copy of this
order to Plaintiff, and note service on the docket.
The Court certifies under 28 U.S.C. § 1915(a)(3)
that any appeal from this order would not be taken in
good faith, and therefore in forma pauperis status is
denied for the purpose of an appeal. Cf. Coppedge v.
United States, 369 U.S. 438, 444-45 (1962) (holding

exercise.’”) (quoting City of Chicago v. Int’l Coll, of Surgeons, 522
U.S. 156, 173 (1997)).

A-21
that an appellant demonstrates good faith when he
seeks review of a nonfrivolous issue).
SO ORDERED.
Dated: September 15, 2017
New York, New York
/s/

R Kevin Castel
P. KEVIN CASTEL
United States District Judge

A-22
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
ELAINE WARD,
Plaintiff,
-againstTHE CITY OF NEW YORK;
SCOTT STRINGER, NEW YORK
CITY COMPTROLLER; BILL
DE BLASIO, NEW YORK CITY
MAYOR; AISHA NORFLETT,
NYC DOB DIRECTOR OF
LICENSING UNIT; RICK
CHANDLER, NYC DEPARTMENT
OF BUILDINGS COMMIS­
SIONER; ROBERT LIMANDRI,
17-CV-3710 (PKC)
FORMER NYC DOB COMMIS­
ORDER TO
SIONER; ZACHARY CARTER,
AMEND
CORPORATION COUNSEL;
MICHAEL CARDOZO, FORMER (Filed Jun. 13,2017)
CORPORATION COUNSEL;
DRAKE COLLEY, NYC LAW
DEPARTMENT SR. APPEALS
ATTORNEY; LOUISE MOED,
NYC LAW DEPARTMENT OF
COUNSEL; RICHARD DEARING,
NYC LAW DEPARTMENT
ATTORNEY; LUIGGY GOMEZ,
NYC LAW DEPARTMENT
MESSENGER; MOSES WILLIAMS,
NYC LAW DEPARTMENT
NOTARY; DEBRA HERLICA,
NYC BUILDING SPECIAL
INVESTIGATIONS DIRECTOR;

A-23
PATRICIA PENA, NYC BSIU
ATTORNEY; THE PLUMBING
FOUNDATION OF THE CITY OF
NEW YORK, INC.; LAWRENCE
LEVINE, CHAIRMAN OF THE
BOARD OF DIRECTORS AND
LICENSED MASTER PLUMBER
OF THE CITY OF NEW YORK;
STEWART O’BRIEN, EXECUTIVE
DIRECTOR OF THE PLUMBING
FOUNDATION; LT. TERRENCE
O’BRIEN, ASSISTANT DEPUTY
DIRECTOR OF THE PLUMBING
FOUNDATION; LAWRENCE
LEVINE; PAR PLUMBING, INC.
ALSO KNOWN AS THE PAR
GROUP; STUART A. KLEIN
ESQ.; PETER E. SAYER ESQ.,
AND THE LAW OFFICES OF
STUART A. KLEIN, ESQ.
Defendants.
P. KEVIN CASTEL, United States District Judge:
Plaintiff Elaine Ward brings this pro se action, for
which the filing fee has been paid, alleging violations
of her constitutional rights in connection with the 2012
revocation of her master plumbers license. For the rea­
sons set forth below, the Court directs Plaintiff to file
an amended complaint within sixty days of the date of
this order.

A-24
STANDARD OF REVIEW
The Court has the authority to dismiss a com­
plaint, even when the plaintiff has paid the filing fee,
if it determines that the action is frivolous, Fitzgerald
v. First E. Seventh Tenants Corp., 221 F.3d 362, 363-64
(2d Cir. 2000) (per curiam) (citing Pillay v. INS, 45 F.3d
14,16-17 (2d Cir. 1995) (per curiam) (holding that Court
of Appeals has inherent authority to dismiss frivolous
appeal)), or that the Court lacks subject matter juris­
diction, Ruhrgas AG v. Marathon Oil Co., 526 U.S. 574,
583 (1999). The Court is obliged, however, to construe
pro se pleadings liberally, Harris v. Mills, 572 F.3d 66,
72 (2d Cir. 2009), and interpret them to raise the
“strongest [claims] that they suggest,” Triestman v.
Fed. Bureau of Prisons, 470 F.3d 471, 474-75 (2d Cir.
2006) (internal quotation marks and citations omitted)
(emphasis in original).

BACKGROUND
Plaintiff alleges that Defendants conspired to vio­
late her due process rights, discriminated against her
on the basis of her gender, and retaliated against her
for complaining about that discrimination. Named as
Defendants are the City of New York, Comptroller
Scott Stringer, Mayor Bill de Blasio, Department of
Buildings (DOB) Director of Licensing Unit Aisha
Norflett, DOB Commissioner Rick Chandler, former
DOB Commissioner Robert LiMandri, DOB Special
Investigations Director Debra Herlica, DOB Special
Investigations attorney Patricia Pena, the Plumbing

A-25
Foundation of the City of New York, Inc., Lawrence Lev­
ine, Stewart O’Brien, Lt. Terrence O’Brien, Par Plumb­
ing, Inc., Corporation Counsel Zachary Carter, former
Corporation Counsel Michael Cardozo, Law Depart­
ment attorneys Drake Colley, Louise Moed, and Richard
Dearing, Law Department messenger Luiggy Gomez,
NYC Law Department Notary Moses Williams, Stuart
A. Klein Esq., and Peter E. Sayer Esq.
The 47-page complaint contains the following
facts. Plaintiff was an apprentice plumber from 1986
until 1990, and during that time she worked for Larry
Levine at Par Plumbing. In 1990, Plaintiff was pro­
moted to journeyman plumber. That same year, Levine
fired Plaintiff in retaliation for her testifying before
the New York City Division of Human Rights about
gender discrimination in the plumbing trade. Plaintiff
left New York for a number of years because the indus­
try had “blackballed” her for her outspokenness about
gender issues. Plaintiff returned to New York in 1997,
and in 2001, she was issued a master plumbers license,
one of “very few females” to achieve that goal. (Compl.
H 38-39.) Plaintiff ran her own business for the next
ten years without incident. In 2010, the Plumbing
Foundation of the City of New York (Plumbing Foun­
dation), a non-profit organization that sets plumbing
industry standards, asked the DOB to revoke Plain­
tiff’s license so that Plaintiff would be eliminate [ed] as
a “possible future competitor for public work requiring
participation by women licensed plumbers.” (Compl.
f 43.) In February 2011, the DOB served Plaintiff
with a petition containing three charges. One of those

A-26
charges was that Plaintiff had applied for a plumbing
permit for work at a property, knowing that the owner
had hired her to supervise his own worker, rather than
one under her direct supervision. According to Plain­
tiff, the Plumbing Foundation played a role in bringing
that charge to the DOB’s attention.
The DOB offered to settle the matter without re­
voking Plaintiff’s license on the following conditions:
that Plaintiff plead guilty, waive her right to future lit­
igation, pay a $7,500 fine, and submit to a one-year
suspension. Plaintiff declined to settle, and she hired
an attorney, Stuart Klein, to represent her before the
Office of Administrative Trials and Hearings (OATH).
At a hearing in July 2011, the City immediately
dropped two charges, but the OATH administrative
law judge determined that Plaintiff’s license should be
revoked in connection with the allegation purportedly
raised by the Plumbing Foundation. DOB Commis­
sioner LiMandri upheld that decision on September
13,2011.
In November 2011, Klein filed on Plaintiff’s behalf
an Article 78 petition in New York County Supreme
Court. The matter was transferred to the New York
Supreme Court, Appellate Division, First Department,
which held that while there was “substantial evidence”
that Plaintiff had committed the violation, the revoca­
tion of her license for that one infraction was an “ex­
cessive penalty.” Ward u. City of New York, 111 A.D.3d
498 (1st Dep’t Nov. 14, 2013). The New York Court of
Appeals granted leave to appeal to the City, however,
and reversed. 23 N.Y.3d 1046 (Aug. 28, 2014). (“We

A-27
cannot say that “the penalty of [revoking petitioner’s
master plumbers license] . . . shocks the judicial con­
science”).
Since then, Plaintiff has made several attempts to
challenge the Court of Appeals decision reinstating the
revocation of her license. See Ward v. City of New York,
138 A.D.3d 629 (1st Dept. Apr. 28, 2016) (“Petitioner’s
appeal from the order denying her attempt to enforce
an order of this Court was rendered moot by the Court
of Appeals’ reversal of this Court’s order”), Iv. denied,
28 N.Y.3d 1070 (Nov. 22, 2016), reargument denied, 28
N.Y.3d 1135 (Jan. 12,2017). In addition, in 2012, Plain­
tiff applied to the DOB for a “filing representative ID,”
which presumably would have allowed her to work in
the plumbing industry in some capacity. Norflett de­
nied Plaintiff’s application due to “bad moral charac­
ter.” Plaintiff also filed a notice of claim against the
City on August 16, 2016, and a “50-H hearing” took
place on November 18, 2016. The complaint does not
indicate the outcome of that hearing.
The gist of Plaintiff’s complaint is that Defend­
ants conspired to violate her due process rights be­
cause she refused to settle with the DOB. Plaintiff
claims that the city attorneys named as defendants
withheld documents, failed to communicate with her
attorney, and committed other misconduct and fraud
during the state court litigation, and for this reason
she does not accept the validity of the Court of Appeals
decision. Plaintiff further alleges that her attorney,
Klein, tried to coerce her into paying him more money
to represent her in the Article 78 proceeding, and that

A-28
when she refused, he failed to perfect her appeal with
the Appellate Division. Plaintiff had to retain another
attorney, who successfully moved to extend her time to
appeal and represented her in that matter. Plaintiff ac­
cuses Klein of “abuse of process” and with colluding
with her adversaries. Plaintiff seeks $18 million in
damages.
DISCUSSION
A. Rule 8 and Section 1983
Rule 8 of the Federal Rules of Civil Procedure re­
quires a complaint to make a short and plain state­
ment showing that the pleader is entitled to relief. A
complaint states a claim for relief if the claim is plau­
sible. Ashcroft v. Iqbal, 556 U.S. 662,678-79 (2009) (cit­
ing BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
To review a complaint for plausibility, the Court ac­
cepts all well-pleaded factual allegations as true and
draws all reasonable inferences in the pleader’s favor.
Iqbal, 556 U.S. at 678-79 (citing Twombly, 550 U.S. at
555). But the Court need not accept “[tjhreadbare re­
citals of the elements of a cause of action,” which are
essentially legal conclusions. Id. at 678 (citing Twombly,
550 U.S. at 555). After separating legal conclusions
from well-pleaded factual allegations, the court must
determine whether those facts make it plausible - not
merely possible - that the pleader is entitled to relief.
Id.
To state a claim under 42 U.S.C. § 1983, a plain­
tiff must allege both that: (1) a right secured by the

A-29
Constitution or laws of the United States was violated,
and (2) the right was violated by a person acting under
the color of state law, or a “state actor.” West v. Atkins,
487 U.S. 42, 48-49 (1988). For the following reasons,
Plaintiff’s complaint fails to comply with federal plead­
ing rules, and thus her pleading fails to state a claim
on which relief may be granted.
B. Challenge to State Court Judgments
To the extent that Plaintiff is challenging statecourt decisions, the Rocker-Feldman doctrine bars any
such claims. The doctrine - created by two Supreme
Court cases, Rooker v. Fidelity Trust Co., 263 U.S. 413,
415-16 (1923), and District of Columbia Court of Ap­
peals v. Feldman, 460 U.S. 462, 482-86 (1983) - pre­
cludes federal district courts from reviewing final
judgments of the state courts. Exxon Mobil Corp. v.
Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005)
(holding that federal district courts are barred from de­
ciding cases “brought by state-court losers complaining
of injuries caused by state-court judgments rendered
before the district court proceedings commenced and
inviting district court review and rejection of those
judgments.”).
The Rocker-Feldman doctrine applies where the
federal-court plaintiff: (1) lost in state court, (2) com­
plains of injuries caused by the state-court judgment,
(3) invites the district court to review and reject the
state court judgment, and (4) commenced the district
court proceedings after the state-court judgment was

A-30
rendered. Vossbrinck v. Accredited Home Lenders, Inc.,
773 F.3d 423, 426 (2d Cir. 2014).
Plaintiff’s claims arising directly from the statecourt proceedings are precluded by Rocker-Feldman.
Although the Appellate Division, First Department,
held that the revocation of Plaintiff’s master plumbers
license was an excessive penalty, the New York Court,
of Appeals reversed that decision. Plaintiff brought
this action seeking reversal of the decision of the Court
of Appeals. In so doing, she essentially asks this Court
to review and reject the decision of the New York State
Court of Appeals reinstating the revocation. Finally,
Plaintiff alleges that the state-court judgment was
rendered before she commenced this federal action.
Federal district courts do not provide a forum for
reviewing errors in state court proceedings. See, e.g.,
Exxon, 544 U.S. at 284. Plaintiff’s remedy, which she
pursued, was to seek reconsideration in the New York
Court of Appeals. This Court cannot review any of the
state court orders, and any allegations against defend­
ants based on their compliance with the Court of Ap­
peals decision fail to state a claim on which relief can
be granted.
C. Conspiracy
The Court also dismisses Plaintiff’s claims that
Defendants conspired against her. To state a conspiracy
claim under 42 U.S.C. § 1983, a plaintiff must allege
(1) an agreement between two or more government ac­
tors or between a government actor and another entity;

A-31
(2) to act in concert to inflict an unconstitutional
injury; and (3) an overt act done in furtherance of
that goal causing damages. See Ciambriello v. Cnty. of
Nassau, 292 F.3d 307, 324-25 (2d Cir. 2002); see also
Deskovic v. City of Peekskill, 894 F. Supp. 2d 443, 465
(S.D.N.Y. 2012). Allegations of conspiracy are deemed
“baseless” where a plaintiff “offers not a single fact to
corroborate her allegation of a ‘meeting of the minds’
among the coconspirators.” Gallop v. Cheny, 642 F.3d
364, 369 (2d Cir. 2011); Ciambriello, 292 F.3d at 325
(“[C]omplaints containing only conclusory, vague, or
general allegations that defendants have engaged in a
conspiracy to deprive the plaintiff of his constitutional
rights are properly dismissed.”) (internal quotation
marks omitted).
To state a conspiracy claim under 42 U.S.C. § 1985,
a plaintiff must allege facts that plausibly show that
there exists: (1) a conspiracy (2) for the purpose of de­
priving the plaintiff of the equal protection of the laws,
or the equal privileges or immunities under the laws;
(3) an overt act in furtherance of the conspiracy; and
(4) an injury to his person or property, or a deprivation
of his right or privilege as a citizen of the United
States. Thomas u. Roach, 165 F.3d 137, 146 (2d Cir.
1999). “[T]he [§ 1985(3)] conspiracy must also be moti­
vated by some racial or perhaps otherwise class-based,
invidious discriminatory animus behind the conspira­
tors’ action.” Id. (internal quotation marks and citation
omitted).
Plaintiff does not allege any facts suggesting that
Defendants colluded to violate her constitutional or

A-32
statutory rights. The Court therefore dismisses any
claims of conspiracy Plaintiff seeks to bring under
§ 1983 or § 1985(3).
D. Private Actors
Plaintiff names as defendants a number of private
individuals. A claim for relief under § 1983 must allege
facts showing that each defendant acted under the
color of a state “statute, ordinance, regulation, custom
or usage.” 42 U.S.C. § 1983. Private individuals do not
qualify as state actors, and an attorney’s legal repre­
sentation does not constitute the degree of state in­
volvement or interference necessary to state action for
purposes of § 1983. See Bourdon v. Laughren, 386 F.3d
88, 90 (2d Cir. 2004) (citing Polk Cnty. v. Dodson, 454
U.S. 312, 324-25 (1981)); see also Schnabel v. Abram­
son, 232 F.3d 83, 87 (2d Cir. 2000). As previously dis­
cussed, the Court finds that Plaintiff has failed to state
a conspiracy claim. Because the private parties named
as defendants do not qualify as state actors, Plaintiff
therefore fails to state § 1983 claims against them.
E. Claims Against the City of New York
When a plaintiff sues a municipality under § 1983,
it is not enough for the plaintiff to allege that one of
the municipality’s employees or agents engaged in
some wrongdoing. The plaintiff must show that the
municipality itself caused the violation of the plain­
tiff’s rights. See Connick v. Thompson, 131 S. Ct. 1350,
1359 (2011) (“A municipality or other local government

A-33
may be liable under this section [1983] if the govern­
mental body itself‘subjects’ a person to a deprivation
of rights or ‘causes’ a person ‘to be subjected’ to such
deprivation.”) (quoting Monell v. Dep of Soc. Servs. of
City of New York, 436 U.S. 658, 692 (1978)); Cash v.
Cnty. of Erie, 654 F.3d 324, 333 (2d Cir. 2011). In other
words, to state a § 1983 claim against a municipality,
the plaintiff must allege facts showing (1) the existence
of a municipal policy, custom, or practice, and (2) that
the policy, custom, or practice caused the violation of
the plaintiff’s constitutional rights. See Jones v. Town
of East Haven, 691 F.3d 72, 80 (2d Cir. 2012); Bd. of
Cnty. Comm’rs of Bryan Cnty. v. Brown, 520 U.S. 397,
403 (1997) (internal citations omitted).
Plaintiff sues the City of New York, but she fails to
allege that any of her injuries were the result of a mu­
nicipal policy, custom, or practice.
F.

Timeliness of § 1983 Claims

The statute of limitations for claims under § 1983
and § 1985 is found in the “general or residual [state]
statute [of limitations] for personal injury actions.”
Pearl v. City of Long Beach, 296 F.3d 76, 79 (2d Cir.
2002) (quoting Owens v. Okure, 488 U.S. 235, 249-50
(1989)). In New York, that period is three years. See
N.Y. C.P.L.R. § 214(5). Such claims generally accrue
when a plaintiff knows or has reason to know of the
injury that is the basis of the claim. Hogan v. Fischer,
738 F.3d 509, 518 (2d Cir. 2013).

A-34
Plaintiff filed this complaint on May 17, 2017, and
any claims that arose more than three years before the
filing date generally are time-barred. Plaintiff’s claims
arising before May 18, 2014, are thus time-barred un­
less there is some basis for tolling the limitations pe­
riod.
The doctrine of equitable tolling permits a court,
“under compelling circumstances, [to] make narrow
exceptions to the statute of limitations in order ‘to
prevent inequity.’”In re U.S. Lines, Inc., 318 F.3d 432,
436 (2d Cir. 2003) (citation omitted). The statute of
limitations may be equitably tolled when a defendant
fraudulently conceals from a plaintiff the fact that the
plaintiff has a cause of action, or when the plaintiff
is induced by the defendant to forego a lawsuit until
the statute of limitations has expired. See Pearl, 296
F.3d at 82-83. New York also provides by statute for
other circumstances in which a limitations period may
be tolled. See, e.g., C.P.L.R. § 204(a) (where commence­
ment of an action has been stayed by court order), id.
at § 204 (where a dispute has been submitted to arbitra­
tion but is ultimately determined to be non-arbitrable),
id. at § 207(3) (defendant is outside New York at the
time the claim accrues), id, at § 208 (plaintiff is disa­
bled by infancy or insanity), id. at § 210 (death of plain­
tiff or defendant).
To the extent Plaintiff asserts any claims not
barred by Rocker-Feldman, he does not provide any
facts suggesting that the statute of limitations should
be equitably tolled in this case. Because the failure
to file an action within the limitations period is an

A-35
affirmative defense, a plaintiff is generally not re­
quired to plead that the case is timely filed. Cortes v.
City of New York, 700 F. Supp. 2d 474, 482 (S.D.N.Y.
2010). Dismissal is appropriate, however, where the ex­
istence of an affirmative defense, such as the statute of
limitations, is plain from the face of the pleading. See
Pino v. Ryan, 49 F.3d 51, 53 (2d Cir. 1995) (affirming
sua sponte dismissal under 28 U.S.C. § 1915(d) on stat­
ute of limitations grounds); Baker u. Cuomo, 58 F.3d
814, 818-19 (2d Cir. 1995) (sua sponte dismissal is “ap­
propriate if it appears from the face of the complaint
that the action is barred ... by the statute of limita­
tions”), vacated in part on other grounds, 85 F.3d 919
(2d Cir. 1996). If Plaintiff wishes to pursue the claims
that appear to be time-barred, her amended complaint
must allege facts showing that the applicable limita­
tions period should be equitably tolled.
G. Leave to Amend
District courts generally grant a pro se plaintiff
leave to amend a complaint to cure its defects, but
leave to amend may be denied if the plaintiff has al­
ready been given an opportunity to amend but has
failed to cure the complaint’s deficiencies. See Ruotolo
v. City of New York, 514 F.3d 184, 191 (2d Cir. 2008);
Salahuddin v. Cuomo, 861 F.2d 40, 42 (2d Cir. 1988).
For the reasons discussed in this order, it does not ap­
pear that the defects in Plaintiff’s complaint can be
cured with an amendment. In an abundance of caution,
however, the Court grants Plaintiff an opportunity to
amend her complaint.

A-36
CONCLUSION
The Clerk of Court is directed to mail a copy of this
order to Plaintiff, and note service on the docket. Plain­
tiff is granted leave to file an amended complaint that
complies with the standards set forth above. Plaintiff
must submit the amended complaint to this Court’s
Pro Se Intake Unit within sixty days of the date of this
order, caption the document as an “Amended Com­
plaint,” and label the document with docket number
17-CV-3710 (PKC). An Amended Complaint form is at­
tached to this order. No summons will issue at this
time. If Plaintiff fails to comply within the time al­
lowed and cannot show good cause to excuse such fail­
ure, the complaint will be dismissed for failure to state
a claim upon which relief may be granted. The Court
certifies under 28 U.S.C. § 1915(a)(3) that any appeal
from this order would not be taken in good faith, and
therefore informer pauperis status is denied for the
purpose of an appeal. Cf. Coppedge u. United States,
369 U.S. 438, 444-45 (1962) (holding that an appellant
demonstrates good faith when he seeks review of a
nonfrivolous issue).
SO ORDERED.
Dated: 6-13-17
New York, New York
/s/

P. Kevin Castel
P. KEVIN CASTEL
United States District Judge

A-37
UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 23rd day of July, two thou­
sand nineteen.
Elaine Ward,
Plaintiff - Appellant,
v.
City of New York, et al.,

ORDER
Docket No: 17-2973

Defendant - Appellees.
Appellant, Elaine Ward, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered
the request for panel rehearing, and the active mem­
bers of the Court have considered the required for re­
hearing en banc.

A-38
IT IS HEREBY ORDERED that the petition is de­
nied.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

A-39
SUPREME COURT - STATE OF NEW YORK
NEW YORK COUNTY CLERK
CIVIL INDEX MINUTE BOOK INQUIRY
CCOAMINI
INDEX NO: 100341 2012
PURCHASE: 01112012
PLAINTIFF NAME:
WARD ELAINE
ATTORNEY:
KLEIN SLOWIK PLLC
90 BROAD ST, SUITE
NEW YORK, NY
212 564-7560

DATE: 03/29/2017
TIME: 12:16:09
DEFENDANT NAME:
CITY OF NY
ATTORNEY:
UNKNOWN

SEQ
0001

DATE
01112012

MINUTES
VERIFIED PETITION

0001

03052012

ORDER IAS PART 58 SEQ 01
TRANSFERRED TO APPELLATE
DIVISION, FIRST DEPARTMENT

0002
0001
0002
0001
0001

03052012
03282012
03282012
11212013
04172014

NOTICE OF ENTRY
AFFIDAVIT OF SERVICE
SUBPEONA [sic] # 74
REMITTITUR

NOTICE OF APPEARANCE

A-40
12/12/2014
£1 12/12/2014
a 12/12/2014
a 12/12/2014
12/12/2014
12/8/2014
11/21/2014
11/17/2014
a 11/12/2014
11/12/2014
11/3/2014
a 10/24/2014
M 10/24/2014
10/24/2014
10/24/2014
10/24/2014
■ 9/30/2014
M 9/19/2014

AFFIDAVIT reply
AFFIRMATION amended opposition
AFFIRMATION opposition
AFFIDAVIT OF SERVICE
ORDER SIGNED IAS PART 58
SEQ 04 MOTION IS DENIED.
AFFTS,NOTICE OF MOTION FEE
PAID
NOTICE OF APPEAL, COPY FOR­
WARDED TO
ORDER TO SHOW CAUSE FEE PAID
ORDER SIGNED
AFFTS,NOTICE OF MOTION FEE
PAID
COPY OF ORDER W/NOTICE OF
ENTRY WITH AFFT OF SVC
LETTER. SEQ 04
NOTICE OF APPEARANCE
AFFIR. SEQ 004
ORDER SHOW CAUSE. SEQ 03
DECISION AND ORDER SEQ IAS
PT 58 SEQ 003 APPLICATION IS
DENIED AS MOOT
OTHER PAPERS Corrected Remittitur
PAPER FILED REMITTITUR
FROM COURT OF APPEALS

Legend: & Records Room ■ Scanned

A-41
New York County Clerk’s Office
WARD ELAINE vs. NYC DEPT OF BUILDINGS
1/1/2012 Supreme Court General Index Reg. (General)
33 Actions
3/23/2017 COPY OF LETTER DATED
2/14/2017 WITH EXHIBITS
M 4/29/2016 ORDER SIGNED REMITTITUR #266
AFFIRMED AFTER ARGUMENT/
SUBMISSION (BOX 82 REC. RM)
£!■ 6/24/2015 Receipt from Appellate Division,
1st Department
M 5/19/2015 Appellate Division Receipt
M 5/4/2015
NOTICE OF APPEAL, COPY FOR­
WARDED TO
El 4/29/2015 Receipt from the Appellate Division
4/29/2015 COPY OF ORDER WITH NOTICE
OF ENTRY
4/20/2015 REPLY AFFIDAVIT TO RESPOND­
ENTS’ AFFIRMATION IN OPPOSI­
TION TO MOTION . . ., SEQ 006
4/20/2015 AFFTS,NOTICE OF MOTION FOR
A TRAVERSE HEARING, SEQ 006
l£S 4/20/2015 AFFIRMATION IN OPPOSITION
TO MOTION FOR TRAVERSE
HEARING, SEQ 006
M 4/20/2015 RECEIVED PAPERS SEQ 006
£■ 4/20/2015 DECISION AND ORDER SEQ 006
PT 58 MOTION IS DECIDED IN ACCORD.WITH THE ATTACH MEMO
3/4/2015
NOTICE OF APPEAL, COPY FOR­
WARDED TO
1/15/2015 ORDER W N ENTRY
12/12/2014 AFFTS,NOTICE OF MOTION

